U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



National Telecommunications and
      Information Administration



         Massachusetts Public Safety
Interoperable Communications Grant
                 2007-GS-H7-0036


                 Audit Report No. OIG-11-003-A

                               October 25, 2010




      FOR PUBLIC RELEASE



                  Office of Audit and Evaluation
                                                                                        Enclosure 1
                                                                                        Page 1 of 2



                                    NOTICE TO AUDITEES
                                   Financial Assistance Audits


1.   Audit requirements applicable to a particular financial assistance award may be established
     by law, regulation, policy, or the terms of the recipient's financial assistance agreement with
     the Department of Commerce.

2.   Audit results will be reported to the bureau or office administering the financial assistance
     award and to you (the recipient/auditee), unless the Department’s inspector general
     determines it is in the government's interest to withhold the audit report.

3.   Audit results may lead to adverse consequences for you, including the following actions
     (which are subject to applicable laws and regulations):

     o    suspension and/or termination of current awards;

     o    referral of identified problems to other federal funding agencies and entities as deemed
          necessary for remedial action;

     o    denial of eligibility for future awards;

     o    cancellation of authorization for advance payment and substitution of reimbursement
          by check;

     o    establishment of special conditions in current or future awards; and,

     o    disallowance of costs, which could result in a reduction in the amount of federal
          payments, withholding of payments, offset of amounts due the government
          against amounts due you, or establishment of a debt and appropriate debt
          collection follow-up (including referrals to collection agencies).

     Because of these and other possible consequences, it is important that you take your
     responsibility to respond to audit findings seriously by providing explanations and evidence
     to support your position with respect to the disputed results.
                                                                                        Enclosure 1
                                                                                        Page 2 of 2


4.   You have the following opportunities to point out errors (of fact or law) that you believe
     were made in the audit, to explain other disagreements with audit findings and
     recommendations, to present evidence that supports your positions, and to dispute final
     determinations:

     o   At any time during the audit, you may bring to the attention of the auditors
         evidence you believe affects the auditors' work.

     o   At the completion of the audit on-site, as a matter of courtesy, you will usually be
         given the opportunity to discuss (during an exit conference) the preliminary audit
         findings and to present a clear statement of your position on the significant
         preliminary findings, including possible cost disallowances.

     o   When the draft audit report is issued, you will have the opportunity to comment
         and to submit evidence during the 30 days after we transmit the report to you.
         (We will not extend this deadline.)

     o   When the final audit report is issued, you will have the opportunity to comment
         and to present evidence during the 30 days after we transmit the report to you.
         (We will not extend this deadline.)

     o   When the Department issues its decision (the "Audit Resolution Determination") on
         the audit report's findings and recommendations, you have the right to appeal for
         reconsideration within 30 calendar days after receiving the Determination Letter if
         monies are due the government. (We will not extend this deadline.) The
         Determination Letter will explain the specific appeal procedures.

     o   Once you file an appeal or the appeal period has expired, the Department will not
         accept any further submissions concerning your dispute of its decisions. If it is
         determined that you owe money or property to the Department, the Department will
         take appropriate collection action but will not thereafter reconsider the merits of the
         debt.

     There are no other administrative appeals available in the Department.
U.S. Department of Commerce                                                                                    Final Report OIG-11-003-A
Office of Inspector General                                                                                              October 25, 2010


                                                                 CONTENTS

Introduction ......................................................................................................................................1
Findings and Recommendations ......................................................................................................3
         I.        Investments Appear to Be on Schedule for Completion Before End of Grant ...........3
         II.       EOPSS Provided Matching Share Details .................................................................3
         III.      EOPSS Cost Tracking System is Acceptable .............................................................4
         IV.       EOPSS Generally Complied with Other PSIC Requirements ....................................5
         V.        Follow-Up on Prior Audit Recommendations ............................................................5
Summary Results of Financial Audit ...............................................................................................6
Appendix A: Objectives, Scope, and Methodology.........................................................................7
Appendix B: Summary of Source and Application of Funds ..........................................................9
Appendix C: Summary of Financial/Compliance Audit ................................................................10
Appendix D: Recipient Response ..................................................................................................12
U.S. Department of Commerce                                                            Final Report OIG-11-003-A
Office of Inspector General                                                                      October 25, 2010


                                                INTRODUCTION

On September 30, 2007, the National
Telecommunications and Information                               Public Safety Interoperable
Administration (NTIA) awarded a Public
Safety Interoperable Communications (PSIC)
                                                                 Communications Program
grant to the Commonwealth of Massachusetts                   The Digital Television Transition and Public
to enhance interoperable emergency                           Safety Act of 2005 authorized NTIA, in
communications. The grant provided federal                   consultation with the Department of
funding of $21,191,988, of which                             Homeland Security (DHS), to implement the
$14,306,260 required nonfederal matching                     PSIC program─a $1 billion, one-time,
contributions. Federal funds provided for                    formula-based matching grant program
acquisition and deployment of                                intended to enable public safety agencies to
communications equipment, and management                     establish interoperable emergency
and administration (M&A) costs, must be                      communications systems using reallocated
                                                             radio spectrum.
matched by nonfederal contributions of at
least 20 percent of the total cost of those                  NTIA signed a memorandum of
activities. Statewide planning, planning and                 understanding with DHS, under which DHS
coordination, and training costs do not require              oversees and administers the PSIC program.
matching share. The $14,306,260 provided
for acquisition, deployment, and M&A                         The Implementing Recommendations of the
represents 80 percent of the total cost of those             9/11 Commission Act of 2007 requires the
activities, leaving a minimum nonfederal                     Commerce Inspector General to conduct
matching share requirement of $3,576,565.                    financial audits, over 4 years, of a
                                                             representative sample of at least 25 states or
The award period runs from October 1, 2007,                  territories receiving PSIC grants.
to September 30, 2011. On November 6,
2009, the President signed Public Law 111-96, which extended the PSIC program beyond its
original expiration date of September 30, 2010. The new law extended the performance period of
all PSIC grants through September 30, 2011, and allowed for additional extensions, through
September 2012, on a case-by-case basis, if approved by the Assistant Secretary for
Communications and Information.

The Governor of Massachusetts designated the Massachusetts Executive Office of Public Safety
and Security (EOPSS) as Massachusetts’s state administrative agency to apply for and administer
PSIC funds1. EOPSS prepared an investment justification, as instructed in NTIA’s PSIC
Program Guidance and Application Kit, describing how the grant funds would be used to
improve interoperable communications and ensure interoperability with other public safety
agencies. The investment justification described 10 individual investments (table 1) that would
achieve meaningful and measurable improvements in interoperability and fill gaps in the
statewide communications interoperability plan. NTIA approved the investment justification on
April 4, 2008.

1
  The PSIC program requires the governor of each state or territory to designate a state administrative agency to
apply for and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of
the total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless
the local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf.


                                                         1
U.S. Department of Commerce                                                        Final Report OIG-11-003-A
Office of Inspector General                                                                  October 25, 2010



                      Table 1. Investment Justification and Funding
                                                          PSIC Funds         Nonfederal
         PSIC Investment Justification                      Awarded             Match2                    Total
1.    Governance and Funding                               $1,640,000                              $1,640,000
2.    Information Enterprise Implementation                  1,200,000                               1,200,000
3.    Command Consolidation                                    270,000                                 270,000
4.    Statewide Interoperability Backbone                    7,275,000                               7,275,000
5.    Channel Definition and Command
                                                             2,225,000                               2.225,000
      Channel
6.    Statewide 700/800 MHz Network                          1,000,000                               1,000,000
7.    Continuity of Government
                                                             5,000,000                               5,000,000
      Communications
8.    Protocol Initiative                                      250,000                                 250,000
9.    Innovation Initiative                                     53,946                                  53,946
10. Strategic Technology Reserve                             1,641,000                               1,641,000
Management and Administration                                  635,760           158,940               794,700
Statewide Plan                                                    1,282                                   1,282
Nonfederal Match                                                               3,417,625             3,417,625
Total                                                     $21,191,988         $3,576,565          $24,768,553
Source: EOPSS investment justification


States were required to include a prescribed strategic technology reserve in their investment
justifications. The strategic reserve is designed to pre-position, or secure in advance,
interoperable communications equipment for immediate deployment in an emergency situation
or major disaster. Massachusetts’ prescribed strategic reserve amount was $1,641,000 and was
included as investment 10.




2
  NTIA approved EOPSS’ budget and scope modification request to provide a 20 percent nonfederal match at the
total grant level, rather than budgeting for matching share at the individual investment level.


                                                      2
U.S. Department of Commerce                                              Final Report OIG-11-003-A
Office of Inspector General                                                        October 25, 2010


                              FINDINGS AND RECOMMENDATIONS

In July 2009, we initiated an audit of costs claimed by EOPSS to determine whether it had
complied with PSIC grant guidelines and DHS award terms and conditions. The audit covered
the award period of October 1, 2007, through June 30, 2009, during which time EOPSS claimed
total costs of $313,943. As stated in appendix A, the objective of our audit was to determine
whether EOPSS was using its grant funds in accordance with federal requirements. In particular,
we assessed whether EOPSS (1) is on track to complete its interoperable communications
investments by September 30, 2011; (2) met the minimum 20 percent match for acquiring and
deploying interoperable communications equipment, and for M&A costs; (3) claimed reasonable,
allowable, and allocable costs under the award; and (4) complied with grant terms and
conditions. The following sections detail our findings with respect to each audit objective.

I.    Investments Appear to Be on Schedule for Completion Before End of Grant

EOPSS plans to complete the 10 investments funded by the PSIC grant by the grant completion
date of September 30, 2011. Although legislation extended the grant through September 2011,
EOPSS advised us at the time of our draft audit report that it had chosen not to extend its time
line for project completion beyond the date originally contained in its investment justification.
On May 5, 2010, NTIA approved EOPSS’ budget and scope modification request to reprogram
$3,775,000 originally budgeted for acquisition and deployment activities under investment 5 to a
similar purpose under investment 7, and leaving projected completion dates unchanged.

Our audit found nothing to indicate that any of the investments would not be completed before
the end of the grant.

II.   EOPSS Provided Matching Share Details

The Digital Television Transition and Public Safety Act of 2005, Public Law 109-171, Section
3006; the PSIC Program Guidance and Application Kit; and the special award conditions require
a minimum 20 percent matching share be contributed from nonfederal sources for those portions
of the grant project not identified as planning and coordination or training. EOPSS officials
claimed that the nonfederal matching share for the PSIC grant is in place, in the form of spending
on expansion of the Massachusetts State Police emergency communication system, funded by a
state bond appropriation. In its May 2010 budget and scope modification, EOPSS received
approval to provide a 20 percent nonfederal match at the total investment justification level,
rather than providing specific matching shares for each individual investment.

Our draft audit report expressed concerns about EOPSS’ tracking and reporting of nonfederal
matching share contributions. Specifically, we reported that EOPSS claimed that $3.3 million in
matching share expenses had been incurred through June 30, 2008, and an additional
$3.7 million was encumbered for costs incurred through June 30, 2009. However, we could not
verify that the $7 million of nonfederal expenditures involved allowable costs incurred under the
PSIC grant. The matching share contributions relate to communications system expansion by the
Massachusetts State Police, but neither EOPSS nor State Police officials were able to identify
which expenditures represented the PSIC matching share contributions. Absent documentation to


                                                3
U.S. Department of Commerce                                                Final Report OIG-11-003-A
Office of Inspector General                                                          October 25, 2010


support allowability of EOPSS’ proposed nonfederal matching share, our draft audit report
recommended that EOPSS return $23,047 in excess federal reimbursements we computed as of
June 30, 2009.

In its response to the draft audit report, EOPSS provided details of $3.7 million in specific State
Police communications expansion costs that will be claimed as PSIC matching share
contributions. We contacted NTIA’s PSIC Deputy Program Manager, who reviewed the
proposed State Police expenditures and advised that they appear to be within the scope of the
PSIC grant. Although less than the $7 million proposed match EOPSS contemplated prior to our
draft audit report, the State Police match, coupled with an additional $600,000 in proposed
nonfederal contributions, would be sufficient to meet the minimum matching share requirement
of the PSIC grant.

Based on EOPSS’ submission of additional matching share details and the PSIC Deputy Program
Manager’s statement that the costs appear to be within the scope of the grant, we have withdrawn
our draft audit report finding that EOPSS received excess federal reimbursements and the
associated recommendation to return $23,047 to the federal government. EOPSS’ response,
excluding attachments, is included in appendix D.


III.   EOPSS Cost Tracking System is Acceptable

Our draft report expressed concerns about EOPSS’ cost tracking at the individual investment
level. Specifically, we reported that since EOPSS did not account for and track expenditures at
the individual investment level, we were not able to verify the application of funds on each
investment. In addition, we reported that EOPSS did not compare its actual expenditure outlays
with budgeted amounts for each investment.

In its response to the draft audit report, EOPSS provided a spreadsheet detailing actual and
budgeted expenditures by investment and subrecipient. EOPSS explained that the
commonwealth’s accounting system, the Massachusetts Management, Accounting, and
Reporting System (MMARS), does not allow obligations or expenditures in excess of the
approved award amount. Also, EOPSS responded that it reconciles award expenditures on a
weekly basis through MMARS.

Based on EOPSS’ submission of a documented expenditure tracking system and explanation of
its expenditure monitoring activities, we have withdrawn our draft audit report finding that
EOPSS was not adequately tracking PSIC project costs and budget performance, as well as the
associated recommendation to provide evidence of its cost and budget tracking systems to the
federal government.




                                                 4
U.S. Department of Commerce                                            Final Report OIG-11-003-A
Office of Inspector General                                                      October 25, 2010


IV.       EOPSS Generally Complied with Other PSIC Requirements

We found EOPSS was generally in compliance with PSIC grant requirements. Specifically, we
noted EOPSS (1) submitted six of seven3 periodic financial status reports on time, (2) did not
retain advances of federal funds for more than the 30 days permitted under PSIC policy, and
(3) received written agreements to expend PSIC funds on behalf of the local public safety
agencies represented by the commonwealth’s four regional homeland security advisory councils
and the Boston Area Security Initiative.


V.        Follow-Up on Prior Audit Recommendations

As part of our audit, we reviewed the results of the commonwealth’s OMB Circular No. A-133
audit for the year ended June 30, 2008. The audit report did not contain findings related to
administration of the PSIC grant.




3
    The one report submitted late was only 9 days past its deadline.


                                                            5
U.S. Department of Commerce                                               Final Report OIG-11-003-A
Office of Inspector General                                                         October 25, 2010


                              SUMMARY RESULTS OF FINANCIAL AUDIT

The results of our interim cost audit for the period October 1, 2007, through June 30, 2009,
(detailed in appendix C) are summarized as follows:


Costs Claimed                                                            $313,943
Less: Questioned Costs                                                         77(a)
Costs Accepted                                                           $313,866

Accepted Costs Not Subject to Match                                      $198,631
Accepted Costs Subject to Match                     $115,235
Federal Share Ratio                                     x 80%               92,188
Federal Funds Earned                                                       290,819
Federal Funds Disbursed                                                    313,943
Excess Disbursements                                                       $23,124(b)

Notes:
(a) EOPSS claimed unallowable supply costs. This amount should be deducted from a future
    cost claim.
(b) Although EOPSS’ cost claims through June 30, 2009, did not include nonfederal matching
    share contributions, EOPSS provided documentation in its response to the draft audit report
    that illustrates its plan to provide adequate matching share contributions during the grant
    period. The recommendation to return excess disbursements of $23,047 has been removed, as
    discussed in section II of this report.




                                                6
U.S. Department of Commerce                                             Final Report OIG-11-003-A
Office of Inspector General                                                       October 25, 2010


                    APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Massachusetts Executive Office of
Public Safety and Security (EOPSS) was using its grant funds in accordance with federal
requirements. In particular, we assessed whether EOPSS (1) is on track to complete its
interoperable communications investments by September 30, 2011; (2) met the minimum
20 percent match for acquiring and deploying interoperable communications equipment, and for
M&A costs; (3) claimed reasonable and allowable costs under the award; and (4) complied with
grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through June 30, 2009. We conducted our fieldwork in July 2009, at EOPSS’ office in Boston,
Massachusetts, and at the Massachusetts Emergency Management Agency, Massachusetts State
Police headquarters, and the Offices of the United Way of Tri-County, all located in
Framingham, Massachusetts.

To meet our objectives, we did the following:

   •   reviewed investment documentation and discussed each investment with agency officials;
   •   analyzed source documents related to the minimum 20 percent match for acquiring and
       deploying interoperable communications equipment and for M&A of the grant;
   •   traced costs claimed to source documentation;
   •   interviewed EOPSS officials and reviewed the commonwealth's OMB Circular A-133
       audit report for the year ending June 30, 2008; and
   •   reviewed pertinent laws, regulations, and guidance (listed below) against EOPSS’ PSIC
       activities and internal controls.

We evaluated EOPSS’ compliance with federal laws and regulations applicable to the PSIC
grant, including the following:

   •   Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
       Law 109-171
   •   Call Home Act of 2006, Public Law 109-459
   •   Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
       53
   •   Public Safety Interoperable Communications Grants, Public Law 111-96
   •   15 Code of Federal Regulations, Part 24, Uniform Administrative Requirements for
       Grants and Agreements to State and Local Governments
   •   PSIC Program Guidance and Application Kit, August 16, 2007
   •   National Preparedness Directorate Information Bulletin #268



                                                7
U.S. Department of Commerce                                               Final Report OIG-11-003-A
Office of Inspector General                                                         October 25, 2010


   •   NTIA PSIC Grant Program Allowable Cost Matrix
   •   NTIA PSIC Grant Program Frequently Asked Questions
   •   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •   OMB Circular A-133, Compliance Supplement, CFDA 11.555
   •   Special Award Conditions
   •   Department of Commerce Financial Assistance Standard Terms and Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We verified the validity and reliability of the computer-processed data supplied by EOPSS by the
direct testing of data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.

We analyzed nonstatistical samples of EOPSS, the Massachusetts State Police, and subrecipient
transactions, generally focusing on the highest dollar value transactions and line items. Since we
did not attempt to extrapolate findings from sample analyses to all transactions, we believe our
sampling methodology represented a reasonable basis for the conclusions and recommendations
included in our report.

We obtained an understanding of the management controls of EOPSS by interviewing EOPSS
officials, as well as examining policies and procedures, EOPSS’ most recent single audit report,
and written assertions from EOPSS officials. Our report contains recommendations to address
EOPSS’ reporting of matching share and tracking project costs on each investment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under the authority of Implementing Recommendations of the 9/11
Commission Act of 2007; the Inspector General Act of 1978, as amended; and Department
Organization Order 10-13, August 31, 2006.




                                                8
U.S. Department of Commerce                                           Final Report OIG-11-003-A
Office of Inspector General                                                     October 25, 2010


               APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS

                   THE MASSACHUSETTS EXECUTIVE OFFICE
                       OF PUBLIC SAFETY AND SECURITY
               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                           GRANT NO. 2007-GS-H7-0036
                    OCTOBER 1, 2007, THROUGH JUNE 30, 2009

                                      Approved                    Receipts &
                                       Budget                      Expenses
                                        (a)                          (b)

SOURCE OF FUNDS:

Federal                               $21,191,988                     $313,943
Nonfederal                              3,576,565                            0
Total                                 $24,768,553                     $313,943

APPLICATION OF FUNDS:

Investment 1                          $ 1,640,000                     $      0
Investment 2                            1,200,000                            0
Investment 3                              270,000                            0
Investment 4                            7,275,000                            0
Investment 5                            2,225,000                            0
Investment 6                            1,000,000                            0
Investment 7                            5,000,000                            0
Investment 8                              250,000                            0
Investment 9                               53,946                            0
Investment 10                           1,641,000                            0
Statewide Planning                          1,282                            0
M&A Costs                                 794,700(c)                   110,902
Unspecified                                     0                      203,041(d)
Nonfederal Match                        3,417,625(e)                         0(f)

Total                                 $24,768,553                     $313,943

Notes:
(a) The approved budgeted costs are for the period of October 1, 2007, through September 30,
    2011, based on the approved investment justification.
(b) The receipts and expenses are for the period of October 1, 2007, through June 30, 2009.
(c) M&A costs include $635,760 of federal funds and $158,940 of nonfederal match.
(d) Costs were not tracked and recorded by investment.
(e) In the modification, EOPSS is approved to provide a 20 percent nonfederal match at the
    total investment justification level rather than on each individual investment level.
(f) EOPSS did not track and report nonfederal matching share.


                                              9
U.S. Department of Commerce                                              Final Report OIG-11-003-A
Office of Inspector General                                                        October 25, 2010


                 APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

                    THE MASSACHUSETTS EXECUTIVE OFFICE
                        OF PUBLIC SAFETY AND SECURITY
                PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                            GRANT NO. 2007-GS-H7-0036
                     OCTOBER 1, 2007, THROUGH JUNE 30, 2009

                                                                         Results of Audit
                         Approved                Costs              Costs             Costs
Description               Budget                Claimed           Questioned         Accepted
                            (a)
Investment 1             $ 1,640,000           $      0                 $ 0            $      0
Investment 2               1,200,000                  0                   0                   0
Investment 3                 270,000                  0                   0                   0
Investment 4               7,275,000                  0                   0                   0
Investment 5               2,225,000                  0                   0                   0
Investment 6               1,000,000                  0                   0                   0
Investment 7               5,000,000                  0                   0                   0
Investment 8                 250,000                  0                   0                   0
Investment 9                  53,946                  0                   0                   0
Investment 10              1,641,000                  0                   0                   0
Statewide Planning              1,282                 0                   0                   0
M&A Costs                    794,700 (b)        110,902                   0             110,902
Unspecified                         0           203,041                  77 (c)         202,964
Nonfederal Match           3,417,625                  0                   0                   0
Total                    $24,768,553           $313,943                 $77            $313,866

Costs Claimed                                                            $313,943
Less: Questioned Costs                                                         77
Costs Accepted                                                           $313,866

Accepted Costs Not Subject to Match                                      $198,631
Accepted Costs Subject to Match                     $115,235
Federal Share Ratio                                     x 80%              92,188
Federal Funds Earned                                                      290,819
Federal Funds Disbursed                                                   313,943
Excess Disbursements                                                      $23,124(d)

Notes:
(a) The approved budgeted costs are for the period of October 1, 2007, through September 30,
    2011, based on the approved investment justification. EOPSS will provide a 20 percent
    nonfederal match at the total investment level, rather than on each individual investment.
(b) M&A costs include $635,760 of federal funds and $158,940 of non-federal match.
(c) EOPSS claimed unallowable supply costs. This amount should be deducted from a future
    cost claim.




                                               10
U.S. Department of Commerce                                         Final Report OIG-11-003-A
Office of Inspector General                                                   October 25, 2010


(d) The recommendation to return excess disbursements of $23,047 has been removed, as
    discussed in section II of this report.




                                            11
U.S. Department of Commerce                                    Final Report OIG-11-003-A
Office of Inspector General                                              October 25, 2010


                              APPENDIX D: RECIPIENT RESPONSE




                                           12
U.S. Department of Commerce        Final Report OIG-11-003-A
Office of Inspector General                  October 25, 2010




(DEN-19727)


                              13
